IN THE SUPREME COURT OF THE UNITED STATES

No.

Marsha Josiah,

Petitioner, Respondent

v.

Robin E. Jackson,

Respondent, Petitioner

ON APPEAL FROM THE CALIFORNIA
THIRD DISTRICT COURT OF APPEAL

PETITIONER, ROBIN E. JACKSON'S
APPENDIX VOLUME 1 of 1

Robin E. Jackson Pro Se litigant
2220 65th Avenue
Sacramento, California 95822

1

eiTAT2 G3TSWU 3HT 30 imiO’J 3M3JW02 2HT VI!

,0'4

jrtsiso!. srteisM

taabnoqes?! ^srioiflJd*?

,v

4no??b6l .3‘ftidoS

•refloftf*9«l, tobrsoqagfi

AIMROiUAD 3HT MOJR JA3*WA HC
JA3<WA 30 TfiUOi TDWT&<3 ClftlHT

zmztmi ,3 tfison ^awoRtns
L lo i 3MUJ0V XiGVm^A

+

J tnsgi.i}l 'il ai<\ wttjbgt .3 nidofl
si'fisw.A ,w<!d QSSS.
£$822 simoftlgO .clnsrmro&S

!

APPENDIX TO THE PETITION FOR A WRIT OF CERTIORARI
TABLE OF CONTENTS

DOCUMENTS
In the Supreme Court of California
The petition for review was denied (December 30,2020)
(Appendix "A")....................................................................

Page Nos.

la

Disposition of the Court of Appeal of the State of California
Third Appellate District by Krause, J (October 21,2020)
(Appendix" A")........................................................................

2a

In the Superior Court of the State of California in and for the County of Sacramento
Order After Trial from Superior Court Judge John P. Winn (June 25,2019)
(Appendix "A").............................................................................................................

12a

2

1a

Court of Appeal, Third Appellate District - No. C089963
S265656

IN THE SUPREME COURT OF CALIFORNIA
En Banc

r

MARSHA JOSIAH, as Trustee, etc., Plaintiff and Respondent,
V.

SUPREME COURT

ROBIN E. JACKSON, Defendant and Appellant.

DEC 3 0 2020

The petition for review is denied.

Jorge Navarrete Clerk

Deputy

CANTIL-SAKAUYE
ChiefJustice

2a
Filed 10/21/20 Josiah v. Jackson CA3

NOT TO BE PUBLISHED

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
THIRD APPELLATE DISTRICT
(Sacramento)
<

MARSHA JOSIAH, as Trustee, etc.,

C089963

Plaintiff and Respondent,

(Super. Ct. No.
34-2017-00219410)

v.
ROBIN E. JACKSON,
Defendant and Appellant.

Robin E. Jackson (Jackson) appeals from an order removing her as a successor
cotrustee of the Eddie Copeland Neighbors Trust (Trust) and surcharging her beneficial
interest in the estate because she breached her fiduciary duties by using trust-owned
property as a personal asset. We conclude that the record on appeal and Jackson’s
briefing are inadequate to permit review. We therefore are compelled to rely on the
presumption of correctness and affirm the judgment.
1

3a

BACKGROUND LAW
The Probate Code sets forth the duties of a trustee in administering a trust.1
(§ 16000 et seq.; Uzyel v. Kadisha (2010) 188 Cal.App.4th 866,888.) Those duties
include, among others, (1) a duty of loyalty; (2) a duty of impartiality; (3) a duty to avoid
conflicts of interest; (4) a duty to preserve trust property and make it productive; (5) a
duty to exercise reasonable care, skill, and prudence in administering the trust; and (6) a
duty to keep the beneficiaries of the trust reasonably informed of the administration of the
trust. (§§ 16000-16015,16040, subd. (a), 16060; Uzyel, supra, atp. 888.) A trustee also
has a duty to administer the trust diligently and in good faith in accordance with the terms
of the trust and applicable law. (Rest.3d Trusts, § 76; § 16000; O’Neal v. Stanislaus
County Employees’ Retirement Assn. (2017) 8 Cal.App.5th 1184,1209; Uzyel, atp. 888.)
A trustee s violation of any duty owed to the beneficiaries is a breach of trust. (§ 16400.)
When a trustee commits a breach of the trust, the trustee is chargeable with any
loss or depreciation in value of the estate resulting from the breach, any profit made by
the trustee through the breach, and any profits that would have accrued to the estate but
for the breach. (§ 16440; Williamson v. Brooks (2017) 7 Cal.App.5th 1294,1301.) A
broad range of remedies is available to address a trustee’s actual or threatened breach of
trust. (Estate of Giraldin (2012) 55 Cal.4th 1058,1068.) Those remedies include
compelling the trustee to perform its duties, enjoining the trustee from breaching the
trust, setting aside the trustee s acts, reducing or denying the trustee’s compensation,
removing the trustee, and “compel[ing] the trustee to redress a breach of trust by payment
of money or otherwise.” (§§ 15642,16420,17200.) The reference to

6« «

payment of

money’ ” is comprehensive and includes liability that might be characterized as a
surcharge to be satisfied from the trustee’s distributive share of the estate. (Estate of

Undesignated statutory references are to the Probate Code.
2

4a

Giraldin, supra, 55 CaUth at p. 1068; Chatard v. Oveross (2009) 179 Cal.App.4th 1098,
1105-1106,1114; see also § 1300.)
A trial court has wide discretion to select the appropriate remedy for a trustee’s
breach of duty. (§§ 16440, subd. (b), 16442,17206; Estate of Gump (1991)
1 Cal.App.4th 582,610; see also Estate of Gilmaker (1962) 57 Cal.2d 627,633 [removal
is discretionary].) We defer to a trial court’s factual findings so long as they are
supported by substantial evidence, and determine whether, under those facts, the court
abused its discretion. {Estate ofBonaccorsi (1999) 69 Cal.App.4th 462,471-472
[surcharge order reviewed for abuse of discretion]; Estate ofFain (1999) 75 Cal.App.4th
973,991 [factual findings reviewed for substantial evidence]; Cahill v. San Diego Gas &
Electric Co. (2011) 194 Cal.App.4th 939,957 [discussing abuse of discretion standard].)
FACTUAL AND PROCEDURAL BACKGROUND
In January 2009, Eddie Copeland Neighbors (the Settlor) created the Trust for the
benefit of her two daughters, Jackson and Marsha Josiah (Josiah), who were to share
equally in her estate. The principal asset of the Trust was the Settlor’s residential home
in Sacramento (the home), which was transferred to the Trust.
In July 2010, around the time that the Settlor was placed in a long-term care
facility, Jackson and her husband began living in the home.
In June 2015, the Settlor passed away and Jackson and Josiah became the
successor cotrustees of the Trust Shortly thereafter, in August 2015, Jackson recorded a
grant deed transferring title of the home from the Trust to herself and her husband.
In September 2017, Josiah filed a petition alleging that Jackson engaged in self­
dealing and breached her fiduciary duties by transferring title to the home and by residing
in it without paying rent to die Trust. Josiah sought, among other relief, an accounting of
the Trust s assets, an order removing Jackson as a successor cotrustee, an order requiring
that the home’s title be returned to the Trust, an order requiring Jackson and her husband

3

5a

to pay rent for the period during which they resided in die home after the Settlor’s death,
and an order allowing Josiah to sell the home. Jackson opposed the petition.
Trial on the petition commenced November 29,2018. Josiah was represented by
legal counsel and Jackson appeared in propria persona. After hearing testimony from
Jackson, Josiah, and an appraiser called to address the fair rental value of the home, the
court found the home to be a Trust asset. The court rejected Jackson’s claim that there
was an agreement to allow Jackson to transfer title of the home from the Trust to Jackson
and her husband. The court ordered that title be returned to the Trust, and continued the
remainder of the trial to March 22,2019. The court advised the parties that the remainder
of the trial would focus on settling the Trust’s accounts and the propriety of a surcharge
order for Jackson’s breach of duty to the Trust. The court ordered the parties to meet and
confer in advance of a status conference set for February 19,2019.
At the February 19 status conference, which was not reported, the court
determined that Jackson was unwilling to cooperate in relation to the appraisal of the
home or the correction to die home’s title. The court ordered that Jackson be suspended
as a cotrustee, that the home immediately be retitled in the name of the Trust, and that an
appraisal of the home be completed by March 12,2019. When Jackson refused to sign a
grant deed transferring title back to the Trust, the court granted an ex parte application
authorizing the clerk to sign the deed as an elisor.
On March 22,2019, trial resumed with die court focusing on the appraised value
of the home, the fair rental value of die home during Jackson’s occupancy, and any
credits to which Jackson might be entitled for paying the home’s mortgage, taxes, or
other expenses benefitting the Trust. Josiah presented documentary evidence regarding
the appraised and fair rental values of the home.
The court found that Jackson failed to present any evidence to support her claims
that she paid expenses benefitting the Trust. However, the court agreed to give Jackson a

4

6a

limited amount of additional time to submit documentary evidence. Jackson timely filed
a responsive declaration.2
On April 22,2019, the court issued a tentative ruling, to which objections were
filed. The court heard additional argument related to the objections on June 7,2019.
The
court then entered a final order on June 25,2019. The court’s order provides that (1) the
home is an asset of the Trust; (2) Jackson owes $79,650 for the fair rental value of the
home for the period from July 1,2015, through March 31,2019; (3) Jackson is entitled to
a credit (offset) of $73,921.43 toward the fair rental value for mortgage payments, taxes,
and other expenses she paid with her personal funds; and (4) as long as Jackson continues
to occupy the home, fair market rent (less any offsetting credits) shall continue to
accrue. The court ordered Jackson removed as a successor cotrustee, but denied Josiah’s
request to require Jackson to vacate the home so that it could be sold. Jackson filed a
notice of appeal on June 28,2019.
DISCUSSION
On appeal, Jackson challenges the trial court’s implied finding that she breached
her fiduciary duties and engaged in self-dealing by transferring title of the home from the
Trust to herself (and her husband) and occupying the home for several years without
paying rent to the Trust. Although Jackson’s brief is difficult to follow, the gravamen of
her claim appears to be that the evidence does not support a finding that her conduct

The 23rd Declaration is not included in the record on appeal. Although Jackson
complains that many documents listed in the docket were not included in die record on
appeal, it appears the documents are missing because she omitted them from her notice
designating the record on appeal.
3
Jackson characterizes the court’s order as holding her liable for personal damages
to Josiah, but we construe the order as imposing a surcharge on Jackson for the harm she
caused to the Trust itself. (See Williamson v. Brooks, supra, 7 Cal.App.5th at p. 1301'
Chatard v. Oveross, supra, 179 Cal.App.4di at p. 1106.)
5

7a

The record also omits most of the opposing party’s pleadings and declarations,
such as Josiah’s objection to die court’s tentative decision.4
As we recognized in Osgood v. London, supra, 127 Cal.App.4th 425, « c a record is
inadequate... if the appellant predicates error only on the part of the record he [or she]
provides the trial court, but ignores or does not present... portions of the proceedings
below which may provide grounds upon which the decision of the trial court could be
affirmed.

9 99

{Id. atp. 435, quoting Uniroyal Chemical Co. v. American Vanguard Corp.

(1988) 203 Cal.App.3d 285, 302; Estate ofFain, supra, 75 Cal.App.4th at p. 992.)
Without an adequate record to overcome the presumption that the court’s ruling was
correct, we must affirm.
In addition to Jackson’s failure to provide an adequate record, her briefing also is
woefully deficient. To demonstrate error, “ ‘an appellant must do more than assert error
and leave it to the appellate court to search the record and the law books to test his [or
her] claim.

5 99

{Flores v. Department of Corrections & Rehabilitation (2014) 224

Cal.App.4th 199,204.) “ ‘It is not our place to construct theories or arguments to
undermine the judgment and defeat the presumption of correctness.’ [Citation.]” {Ibid.)
An appellant must demonstrate error by presenting reasoned argument along with
specific citations to the record and supporting legal authority. {In re S.C. (2006) 138
Cal.App.4th 396,408.) “When a point is asserted without argument and authority for the
proposition, ‘it is deemed to be without foundation and requires no discussion by the
reviewing court.’ [Citations.]” {Ibid.)

On our own motion, we take judicial notice of die trial court’s online register of
Jfa™*fle a* <https://services.saccourt.ca.gov/PublicCaseAccess/Probate> [as of
(d) 459)
’arChlVed at <httPs:^Perma.cc/57RB-9NQ9>. (Evid. Code, §§ 452, subd.

7

8a

breached any fiduciary duties or caused any personal damages to Josiah.

We conclude
that Jackson has forfeited her claims by filing an inadequate brief and record.
I
Inadequacy ofthe Record and Appellant’s Brief
tt < u

A judgment or order of the [trial] court is presumed correct. All intendments

and presumptions are indulged to support it on matters as to which the record is
silent... ” -

[Citation.]’ [Citation.]” {Osgood v. London (2005) 127 Cal.App.4th

425,435, italics omitted.) We will not reverse a judgment or order unless the appellant
affirmatively demonstrates error by an adequate record. {Ibid.) «< (

A necessary corollary
to this rule is that if the record is inadequate for meaningful review, the appellant defaults
and the decision of the trial court should be affirmed.’ [Citations.]” {Gee v. American
Realty & Construction, Inc. (2002) 99 Cal.App.4th 1412,1416; Rancho Santa Fe Assn. v.
Dolan-King (2004) 115 Cal.App.4th 28,46.)
The record here is plainly inadequate as it does not include a complete record of
the evidence presented at trial. Although we have a reporter’s transcript for the first day
of trial, Jackson has not provided a reporter’s transcript or any adequate substitute for the
second day of trial. As a result, we do not know what evidence was received and
considered by the court on the second day of trial, including whatever “doc
umentary
evidence” was presented by Josiah.
Also missing from the record is documentary evidence on which the trial court
explicitly relied in reaching its decision. In its decision, the trial court described
Jackson’s “23rd Declaration” as the basis for its calculation of the credit given to Jackson
for paying expenses on behalf of the Trust But Jackson’s 23rd Declaration is not part of
the record on appeal. Thus, we are prevented from reviewing the court’s calculations of
the offset.

6

9a

Under the California Rules of Court, appellate briefs are required to state each
point under a separate heading or subheading, which summarizes the point. (Cal. Rules
of Court, rule 8.204(a)(1)(B).) Where an appellate brief fails to include proper headings,
the contentions need not be considered. (Heavenly Valley v. El Dorado County Bd. of
Equalization (2000) 84 Cal.App.4th 1323, 1346.)
When a finding of fact is attacked on the ground that there is insufficient evidence
to sustain it, the appellant is required to set forth in the brief all of die material evidence
on the point and not merely the evidence favorable to the appellant. (Foreman & Clark
Corp. v. Fallon (1971) 3 Cal.3d 875, 881; Oarlock Sealing Technologies, LLCv. NAK
Sealing Technologies Corp. (2007) 148 Cal.App.4th 937,951.) Unless this is done, the
error is deemed to be forfeited. (Ibid.)
Jackson has failed to comply with these rules in her appellate brief.5 Her brief
makes numerous assertions of law and fact that are not supported by citations to any
authority or facts in the record.
Where Jackson cites legal principles, she generally fails to explain how they apply
to die facts of this case. For example, she repeatedly refers to the due process clause in
her statement of facts, but never discusses it in the argument portion of her brief.
Similarly, she cites section 16060, but does not explain how that statute relates to the trial
court’s decision in this case.
Her brief refers to laches and the statute of limitations, but she did not include
either defense in her argument headings, and her discussion of them is conclusory,
disjointed, and devoid of meaningful legal analysis. She also makes no attempt to show
that the laches defense was raised in the trial court6 (Kaufman & Broad Communities,

5

Jackson did not file a reply brief.

Unlike the laches defense, Jackson cites to pages in the record where she allegedly
raised a statute of limitations defense (albeit under § 16061.7 rather than § 16061.8). But
8

10a

Inc. V. Performance Plastering. Inc. (2006) 136 Cal.App.4th 212,226 [failure to raise
claim in trial court forfeits it on appeal]; City ofOakland v. Public Employees'
Retirement System (2002) 95 Cal.App.4th 29,52-53 [laches cannot be raised for first time
on appeal].)
Jackson challenges the sufficiency of the evidence to support a finding that she
breached her fiduciaiy duties, but she fails to provide a fair summary of the material
evidence bearing on that issue, discussing only evidence that is favorable to her position
and virtually ignoring the evidence to the contrary, such as Josiah’s contradictory trial
testimony.
We are mindful that Jackson appears in this court without counsel, but that does
not exempt her from the rules governing appeals. The law affords self-represented
litigants “ ‘the same, but no greater consideration than other litigants and attorneys.

9 99

(Nwosu v. Uba (2004) 122 Cal.App.4th 1229,1247; Elena S. v. Kroutik (2016) 247
Cal.App.4th 570, 574.)
Given the deficiencies of Jackson’s brief and the inadequacies of the appellate
record, we are compelled to conclude that Jackson has forfeited whatever contentions

she

was attempting to assert on appeal.

even if Jackson preserved that claim for appeal by briefly referring to it in one of her
declarations, we fail to see how the cited statute has any application to this case, which
involved a petition to enforce the Trust, not to contest or revoke it. (Yeh v. Tai 120171 18
Cal.App.5th 953,967; see also § 21310, subd. (b)(5).)

11a

DISPOSITION
The trial court’s order is affirmed. Each party shall bear its own costs on appeal.
(Cal. Rules of Court, rule 8.278(a)(5).)
KRAUSE

We concur:

BLEASE

Acting P. J.

HOCH

10

1

12a

COURT PREPARED

/Qm 2 5 2019

2
f^uiyClei

. r

3
4
5
6
7
8
9
10
II

IN THE SUPERIOR COURT OF THE STATE < )F CALIFORNIA
IN AND FOR THE
COUNTY OF SACK AMENTO
J
In Re the Matter of

12
13

Eddie Copeland Neighbors Trust*

ORDER AFTER TRIAL

14

dated January 21,2009.

Case No. 34-2017-219410

15
16
17
18

The matter went to trial in regard to one essential issi e: the disposition of a home
located at 2220 65® Avenue in Sacramento. The matter wai \ tried over two days:

20

November 29,2018 and March 22,2019. Day one ofthe hr al focused on title to the
home and the second day focused on the proper disposition of the property. The trial

21

originally was also designed to encompass a review oftrust accountings, but Petitioner

22

agreed to waive any objections to all accountings prepared | >rior to trial.

19

23
24

Day One: November 29.2018

25
26

In January of2009, Eddie Copeland Neighbors (SettBor) created a trust where she
left her estate to her two daughters, Robin Jackson (Respon lent) and Marsha Josiah

27

(Petitioner) in equal shares. The Settlor transferred her hon le located at 2220 65th

28

Avenue to her trust. The settlor passed away on June 11,2 >15 and the two daughters
became co-trustees per the terms ofthe trust Prior to the S rttlor’s death, Respondent
i

13a
1

began living in the home with her husband, Demetri Jackson Respondent and her
2 husband continue to reside in die home. According to an aco Hinting filed by Respondent
3 on August 2,2018, it appears that Settlor moved out of the h >me to Sunrise Assisted
4 Living in September of 2010.
5
On August 3,2015, Respondent recorded a deed puip< siting to transfer the home to
6 I j “Robin Jackson and Demetri Jackson as his/her sole and sep; irate property”. Based upon
7 II the testimony presented at trial, it was abundantly clear that ] ’etitioner never made any
8 oral or written representation that she was giving up her intei est in the 65* Avenue home
9 to her sister. The Court found the Petitioner’s testimony to b s clear, concise, articulate
10 |J and forthcoming. From observing Petitioner, it became quin s apparent that she took no
11 I joy whatsoever in bringing a family disagreement into a pub ic forum. On the other
12 || hand, it was considerably more difficult to track the testimor y of the Respondent.
13

Based upon the Court’s assessment ofdie credibility c f the witnesses and a review
14 of the exhibits presented, the Court found the home to be a ti ust asset. The second day of
15 || trial was set for March 22,2019 and the Court recommendet that the parties meet and
16 || confer prior to March 22nd. In addition, the Court ordered ti tat the home, be appraised
17 and retitled as a trust asset. The Court further advised that d ly two would focus on the
18 fair rental value of the home, mortgage payments and other < tests in order to come up
19 || with the respective dollar interests of the daughters based up an the appraisal. The Court
20 indicated that it intended'to compare the fair rental value of 1 he home with the expenses
21

for the home from the date of the Settlor’s death until upcon ing March trial Mr In

22 addition, the Court set a status conference on February 19,2 )19 in order to confirm that
23 || the home had been properly retitled and the appraisal was cc mpleted.
24

At the February 19th hearing, it was immediately clear that Respondent was
25 || unwilling to cooperate in relation to the appraisal or tire corr rction to the deed. As a
26 result, Respondent was suspended as co-trustee. The Court. ordered that the home be
27 | immediately retitled and that the property be appraised by th e expert who testified
on
28 {November 22,2018.

14a
1

Day Two: March 22. 2ftIQ

2
3

Prior to taking testimony, the Court ruled on Respond! nt’s motion for
reconsideration and motion to vacate and enter a different or ler. The Court found that

4

both motions were untimely and lacked substantive merit AI this point, Respondent had

5

filed 22 separate declarations in relation to either the disposil ion of die home or the trust
accountings.

6
7

Petitioner then presented documentaiy evidence regan mg the appraised and fair

8

rental values of die home. Based upon the evidence presente d, the home is presently

9

valued at $305,000 and the present fair rental value is $1,85C per month. Respondent did

10

not present any records on Day Two. She testified that the p; esent monthly mortgage is
around $1,000 per month, but failed to present any supportin \ documentation in regard toj
I the mortgage, taxes, and repairs to the home. The Court agre ed to take the matter under j

11
12

I submission and provide Respondent die opportunity to subm t relevant documents as
14
15

long as those documents were submitted by 4:00 pm bn Man h 25,2019.
Respondent s 23 Declaration was timely filed and pn >vides the basis for the

16

Court’s calculation ofdie expenses incurred for the 65th Avei lue home.

17
18

Tentative Decision

19

21

The Court issued a tentative decision on April 22,2019. Based upon Objections
filed by the Petitioner and a Request for Statement of Decisic n from Respondent, the

22

Court heard additional argument on June 7,2019. After com ideration of the entire

23

record, the Court makes the following findings:

20

24
25
26
27
28

Findings
The fair market value of the home is $305,000 (Trial Exhibit 6).
The fair rental value (FRV) of the property for the 451 lonth period from July 1,
2015 through March 31,2019 is $79,650 (Exhibit 5).

3

I

15a
i

The FRV is based upon the following monthly rates (J une 2015 — June 2016 =
2 j | $1,650 per month) (July 2016- June 2017 = $1,750 per mon th) (July 2017 - present =
3 $1,850 per month) (Exhibit 5).
4

The mortgage payments made for this same 45 month period totaled approximately
5
6 || $45,000. Respondent testified that the mortgage payment av staged $1000 per month.
7

The property tax payments for the time period totaled £18,019.48 (23rd

8 Declaration).
9
The Super Shooter home repair bill was $3,500. Resp indent's claim for credit
10 ||
^ j towards this bill is denied since there was no proof the bill w is paid (23rd Declaration).
The Clark’s Pest Control bill was $6,455. Responden ;’s claim for credit towards
12
13 || ^is biU is aPProved sin«5 the documents suggest that the bill was paid (23rd Declaration).
The (2) receipts for landscaping work totaled $360. R< spondent is entitled to this
15 || credit (23rd Declaration).
14

16

In addition, Respondent provided documentation that s he paid $4,086.95 for the
17 || Settlor’s funeral service (23rd Declaration). Respondent is en itled to this credit
18

As noted in the tentative decision, Respondent is not ei ititled to foe $30,000 in

20 rcp^irs administered through foe Ygrene Energy Fund since t lis cost was included in foe
21 property tax bills (23rd Declaration).
22

Respondent’s credit for foe payments based on foe 23rd Declaration is $28,921.43.

23 || Including the mortgage payments, Respondent’s total credit i< i $73,921.43.
24

Respondent provided no factual or legal support for hei other claims for credits.

25

Respondent was unable to provide authority how her h» imestead exemption claim
26 would apply to this particular trust asset.
27

28

While Respondent continues to occupy foe residence, foe fair rental and credit
assessments continue to accrue which means that Respondent 's net monthly obligation is

16a

1 I presently $850.
2

|

Petitioner has requested that Respondent and her hush ind Demetri Jackson vacate

3 11 the residence. This is a matter that must be pursued in a diflfi :rent forum. Petitioner cited
4

Probate Code section 850(aX3XA) as die statutory authority for this request. This statute
5 and reported authority construing Probate Code section 850(i tX3XA) do not support this
I contention.

7

8

The Court has not made a ruling on Petitioner’s reques t for attorney’s fees and

9 IIcosts since no memorandum of costs or motion for attorney’s fees has been submitted.
10 I ®ased upon the evidence presented at trial, Respondent’s abi; ity to pay fees and costs wil
11

surely be a significant factor in any award of fees and costs.

12

13 H Orders
14

The request for a statement of decision is denied as uni imely since the matter was

15 II tried in less than eight hours and the request was not made be fere the matter was
16 submitted. (California Rule ofCourt section 3.1590(n)). Th< trial lasted under four
17 || hours over two days.
18
19

Respondent Robin Jackson is removed as Co-Successo r Trustee of the Eddie

20 || ^'°i3e^an^ Neighbors Trust.
21

The home located at 2220 65* Avenue in Sacramento i s a trust asset.

22 || Respondent s owes $79,650 for the fair rental value of the ho ne for the period of July 1,

23 || 2015 to March 31,2019.
24

Respondent is entitled to a $73,921.43 credit toward th; $79,650 fair rental value.

25

Respondent’s other claims for credits and exemptions s re denied.

26

While Respondent occupies the home, rent costs and a edit toward the rent costs

27 II
11 continue to accrue.
28

The request to remove Respondent and Demetri Jackso i from the home is denied.

17a

1
2
3

Petitioner’s request for attorney fees and costs is deferred.
The parties are encouraged to explore a sale of the hor le to a third party or an
arrangement where one party buys out die interest ofthe otto t party. Since Respondent
#

4
5

presently occupies the residence, the home will,not be orden d sold at this {mint
The matter is now deemed to be final.

6
7
8

9
10

Dated: June 25,2019.
jqtfNfCWINH
Jirage of the Su lerior Court

n
12

13
14

15
16
17

18
19
20
21
22

23
24

25
26
27

28

6

